<html>
<title> - H.R. 1712 and H.R. 2937</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 1712 and H.R. 2937
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           February 14, 2002

                               __________

                           Serial No. 107-86

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov




                       U. S. GOVERNMENT PRINTING OFFICE
77-681                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado








                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 14, 2002................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     2
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     7
        Prepared statement on H.R. 1712..........................     8
        Letters and background paper submitted for the record....    10
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     3
        Prepared statement on H.R. 2937..........................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 1712 and H.R. 2937............     2
    Reid, Hon. Harry, U.S. Senator, State of Nevada..............     5
        Prepared statement on H.R. 2937..........................     6

Statement of Witnesses:
    Culp, Carson ``Pete'', Assistant Director, Minerals, Realty 
      and Resource Protection, Bureau of Land Management, U.S. 
      Department of the Interior, Washington, D.C................    22
        Prepared statement on H.R. 2937..........................    23
    Lee, Hon. John J., Nevada State Assemblyman, 3rd District, 
      State of Nevada, Las Vegas, Nevada.........................    19
        Prepared statement on H.R. 2937..........................    21
    Reynolds, John J., Regional Director, Pacific West Region, 
      National Park Service, San Francisco, California...........    23
        Prepared statement on H.R. 1712..........................    25

Additional materials supplied:
    O'Donnell, Brian, Associate Director, Wilderness Support 
      Center, The Wilderness Society, Statement submitted for the 
      record on H.R. 2937........................................    29


  LEGISLATIVE HEARING ON H.R. 1712, TO AUTHORIZE THE SECRETARY OF THE 
INTERIOR TO MAKE MINOR ADJUSTMENTS TO THE BOUNDARY OF THE NATIONAL PARK 
OF AMERICAN SAMOA TO INCLUDE CERTAIN PORTIONS OF THE ISLANDS OF OFU AND 
  OLOSEGA WITHIN THE PARK, AND FOR OTHER PURPOSES; AND H.R. 2937, TO 
  PROVIDE FOR THE CONVEYANCE OF CERTAIN PUBLIC LAND IN CLARK COUNTY, 
                  NEVADA, FOR USE AS A SHOOTING RANGE.

                              ----------                              


                      Thursday, February 14, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:12 p.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The Subcommittee will come 
to order. And this afternoon the Subcommittee on National 
Parks, Recreation and Public Lands will hear testimony and two 
bills, H.R. 1712 and H.R. 2937.
    The first bill, H.R. 1712, introduced by our Subcommittee 
colleague Eni Faleomavaega--see, I got the last name right--
would authorize the Secretary of the Interior to make minor 
boundary adjustments to the National Park of American Samoa to 
include additional areas of land and coral reef on the islands 
of Ofu and Olosega.
    Currently--how was that?
    Mr. Faleomavaega. Excellent.
    Mr. Radanovich. Currently the National Park of American 
Samoa includes the only paleotropical rain forest in the United 
States. It is my understanding that there is broad support 
among the local villages for boundary expansion.
    Our other bill, H.R. 2937, introduced by another 
Subcommittee colleague, Congressman Jim Gibbons, would provide 
for the conveyance of approximately 2,880 acres of public land 
to Clark County, Nevada, for use as a regional public shooting 
range. For the past 20 years, the number of public and private 
shooting ranges throughout the Las Vegas valley have been 
closed due to unprecedented residential growth. It is my 
understanding that the administration supports this 
legislation.
    Once again, I appreciate the witnesses being here to 
testify today. And now I turn my time over to our ranking 
member. Before I say that, I have got a sick wife and child 
that I need to take to the doctor, probably about 2:30. So Mr. 
Gibbons has agreed to take the meeting on from there. So I will 
be ducking out after a little bit.
    But, Donna, I turn it over to you.
    [The prepared statement of Mr. Radanovich follows:]

 Statement of The Honorable George P. Radanovich, a Representative in 
                 Congress from the State of California

    Good afternoon and welcome to the hearing today. The Subcommittee 
will come to order. This afternoon, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on two bills, H.R. 
1712 and H.R. 2937.
    The first bill, H.R. 1712, introduced by our Subcommittee 
colleague, Eni Faleomavaega, would authorize the Secretary of the 
Interior to make minor boundary adjustments to the National Park of 
American Samoa to include additional areas of land and coral reef on 
the islands of O-FOO and O-LOW-SEGA (Ofu and Olosega). Currently, the 
National Park of American Samoa includes the only paleotropical 
rainforest in the United States. It is my understanding there is broad 
support among the local villages for the boundary expansion.
    Our other bill, H.R. 2937, introduced by another Subcommittee 
colleague, Congressman James Gibbons, would provide for the conveyance 
of approximately 2,880 acres of public land to Clark County, Nevada, 
for use as a regional public shooting range. For the past twenty years, 
a number of public and private shooting ranges throughout Las Vegas 
valley have been closed due to the unprecedented residential growth. It 
is my understanding the Administration supports the legislation.
    Once again, I appreciate the witnesses being here to testify today 
and I now turn the time over to the ranking member, Mrs. Christensen 
for an opening statement.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE TO 
       CONGRESS FROM THE TERRITORY OF THE VIRGIN ISLANDS

    Ms. Christensen. Thank you, Mr. Chairman. As you said, we 
are going to receive testimony on two unrelated bills today. I 
would like to welcome Senator Reid and, of course, our 
Subcommittee colleague here who is the sponsor of the first 
measure, H.R. 1712, which would provide for the addition of 
certain lands and waters to the National Park of American 
Samoa.
    As my colleague from American Samoa can attest, this is a 
unique national park that helps protect an important tropical 
ecosystem. It is my understanding that the lands and the waters 
added to be park would preserve significant natural and culture 
resources, as well as enhance the protection of existing park 
resources.
    The second measure before the Subcommittee today, H.R. 
2937, sponsored by another of our colleagues on the 
Subcommittee, Mr. Gibbons, would convey about 4.5 square miles 
of Federal land in Clark County, Nevada, to the county 
government. The acreage in question is currently managed by the 
Bureau of Land Management as part of the Quail Springs 
Wilderness Study Area, and the legislation releases the land 
from the WSA status.
    Apparently, the purpose of the legislation is to provide a 
centralized firearms training facility and shooting range in 
the Las Vegas valley, the benefits of which are obvious. 
However, this transaction raises several concerns, not the 
least of which is the overall size of the transfer and the lack 
of consideration paid for the land. In addition, disposal of a 
part of a wilderness study area is always a cause for some 
concern.
    Finally, the legislation provides that should any of the 
parcels conveyed by the bill cease to be used as a shooting 
range, they will revert to Federal ownership; it is unclear 
what the BLM might do with the land that has been used in such 
a manner, though.
    We would thank all the witnesses for their effort and time 
and look forward to learning about these issues this afternoon.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    I want to welcome Mr. Faleomavaega, who is welcome to join 
us on the dais. Of course, you are on the Committee.
    And also, Senator Reid, welcome to the Committee.
    And right now, I turn my time over to Mr. Gibbons to 
explain his bill. And then we will go to the--

  STATEMENT OF THE HON. JAMES A. GIBBONS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much. And I ask unanimous 
consent that a written copy of my testimony be entered into the 
record. I will try to summarize what I want to say here very 
quickly so I can turn the mike over to Senator Reid, who would 
also like to make comments. I know his time schedule is very, 
very critical in all of this today.
    I want to thank you for the opportunity to have us provide 
this legislation before the Committee today.
    H.R. 2937 is a conveyance of certain public lands in Clark 
County for a shooting range, as you have been told. Companion 
legislation by Senator Reid and Senator Ensign in the Senate 
have introduced a similar bill, S. 1451. We hope that both 
bodies can approve our legislation expeditiously.
    For 15 years Nevada has had the fastest growing population 
of any State in the Union, and for 20 years Clark County has 
been the fastest county with the majority of that growth taking 
place in the Second Congressional District.
    Accommodating our growth and meeting its challenges is 
something that I often discuss in this Committee. Many of us 
know that with this growth come increasing population demands. 
With 87 percent of Nevada being owned by the Federal 
Government, and that percentage is growing, the conflict 
between needs of recreation and demands of growth make it very 
difficult for Nevadans to find opportunities to recreate.
    This piece of legislation before us today will accommodate 
another long-term recreational favorite in Nevada, which is 
target shooting. It is 2,800 acres in the North Las Vegas area 
to be used as a permanent shooting range. Half of the 2,800 
acres, or 1,400 acres, will serve simply as a buffer zone for 
public safety. And that is the reason why the acreage is as 
large as it is.
    This facility will not only provide the public with a safe 
place to shoot, it will serve as a training facility for our 
law enforcement personnel in southern Nevada, a very important 
issue following September the 11th as well. Two thousand eight 
hundred acres are currently designated as wilderness study area 
by the BLM, and the release language includes that it declares 
that the land conveyed has been adequately studied for 
wilderness designation under the Land Policy Act and has been 
found suitable for conveyance over to the county.
    Mr. Chairman, this legislation represents a simple land 
conveyance and makes good sense. If the county fails to use the 
land for the designated purpose it will revert back to it. 
There will be remedial, I am sure, actions to clean up any 
activities that remain if the county decides not to use the 
land; but it will revert back to the government.
    With that, I yield back the balance of my time and want to 
thank you. And I also want to make one important statement, 
that I fully support my good friend from American Samoa and his 
bill as well.
    So with that said, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                 from the State of Nevada, on H.R. 2937

    Mr. Chairman. Thank you for providing the opportunity to have this 
legislation heard before our committee today. H.R. 2937 is a bill to 
provide for the conveyance of certain public lands in Clark County, 
Nevada, for use as a public shooting range. The original author of this 
legislation is my Senate colleague--who joins us today--Senator Harry 
Reid of Nevada. As demonstrated by Senator Reid's presence, this 
legislation enjoys strong bipartisan and bicameral support from our 
Nevada delegation.
    For fifteen consecutive years, Nevada has had the fastest growing 
population of any other state. For twenty years, Clark County, Nevada, 
has been the fastest growing county, with the majority of that growth 
taking place in the Second District of Nevada. Accommodating our growth 
and meeting its challenges is something I often discuss before this 
very committee.
    Mr. Chairman, we take great pride in the outdoor recreational 
opportunities Nevada has to offer. As many of you know, Nevada is 
currently 87 percent public lands--which means that most of the 
recreation takes place on our public lands. I must say, it was quite 
discouraging for me to read recent press accounts taken from a speech 
delivered by our BLM Director in Nevada--where he stated that the 87 
percent figure I just noted is actually increasing!
    Regardless, protecting multiple-use of our lands in Nevada is 
important to our citizens. Whether it is hiking at Red Rock Canyon, 
boating at Lake Mead or Kayaking the Colorado River--we provide a 
wealth of out-door activities. The legislation before us today helps 
accommodate another long-time, recreational favorite in Nevada--- 
target shooting.
    H.R. 2937 will designate approximately 2,800 acres of public land 
in North Las Vegas to be used as a permanent shooting range. About half 
of the 2,800 acres will actually contain the shooting range, with the 
other 1,400 acres serving as a required buffer zone to ensure public 
safety. This new shooting facility will not only provide the public 
with a safe place to shoot, it will serve as a training facility for 
our law enforcement personnel in southern Nevada. As Senator Reid can 
attest to, significant work has gone into this legislation--including 
reversion language should Clark County cease to use the land as 
prescribed in this bill.
    Further, because the 2,800 acres is currently designated Wilderness 
Study Area by the BLM, release language is included that declares the 
land conveyed has been adequately studied for wilderness designation 
under the Federal Land Policy and Management Act (FLPMA). Once the land 
is conveyed to Clark County, it will no longer be subject to FLPMA 
requirements. Mr. Chairman, this legislation represents a simple land 
conveyance and it makes good sense. H.R. 2937 is supported by Nevada's 
congressional delegation, our law enforcement personnel, Clark County 
and the public at-large.
    Again, I want to thank you for this opportunity and I hope we can 
move this bill in the very near future. I will be happy to answer any 
questions you or this committee may have ``
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Gibbons.
    While we are on the same bill, Senator Reid, welcome to the 
Committee. And please feel free to talk about this legislation.

STATEMENT OF THE HON. HARRY REID, A UNITED STATES SENATOR FROM 
                      THE STATE OF NEVADA

    Senator Reid. I appreciate the courtesy of my friend, 
allowing me to go forward. Really, he showed me this Park 
Service visual aid of American Samoa. It reminds me of Nevada.
    Mr. Chairman, thank you very much. I do hope your daughter 
and wife are well. There is a real plague going around in the 
form of a flu and very bad bronchitis and sinusitis and those 
kinds of things. Lucky you have a doctor on the Subcommittee 
here to take care of things.
    I am happy to be here, especially being able to see--we 
lived in the same town a good part of our lives, but we never 
had the opportunity to visit with each other very much, Jim 
Gibbons and I. I am very happy to be here with Jim, who does 
such a great job for the State. I am sure all of you know this, 
but if you don't, let me remind you his wife also does a great 
job for the State. She is a member of the Nevada State 
legislature.
    Mr. Gibbons. I thank you for reminding me, Senator, that my 
life is run by Alfred Hitchcock.
    Senator Reid. She has a great--I guess the Gibbonses have a 
great political history. When he was called into active duty 
because of the Gulf War, he had to give up his position in the 
Nevada State legislature, and his wife was chosen to replace 
him; and she did such a great job. And thereafter Jim was 
relocated. We like them both a lot.
    Mr. Chairman, also today we have another fine specimen from 
Nevada, Assemblyman John Lee, who is going to testify about 
this legislation. We are grateful that you have allowed him the 
opportunity to testify.
    Let me just say this: I ask unanimous consent that my 
statement be made part of the record. I want to condense it. I 
know how busy everyone is.
    Clark County is growing very, very rapidly. And for those 
of us who used to go out shooting, you can't do that any more 
because you wind up shooting someone. Las Vegas is the fastest 
growing area in the entire country, and contrary to a popular 
belief, Las Vegas is one of the most densely populated areas. 
There is not a lot of wide, open spaces in Las Vegas, and that 
is because 87 percent of the land in the State of Nevada is 
owned by the Federal Government. We are land starved.
    As a result of this, the dozens--and I should say hundreds 
and hundreds of people who used to have little places they 
would go shoot, they can't do that anymore. So now what is 
happening, there are makeshift shooting ranges scattered in and 
around Las Vegas, and they are dangerous, to say the least. And 
it creates a real law enforcement problem.
    This legislation that has been introduced by Congressman 
Gibbons paves the way for a world-class shooting range, sports 
park, firearms training facility. The reason we need a lot of 
land--remember, we don't have much. The reason we need a lot of 
land, I say to Mrs. Christensen, is the fact that this is going 
to be an area where people can be shooting. We want a lot of 
space.
    We have a lot of space in southern Nevada, but it is all 
owned by the Federal Government. And while 3,000 acres sounds 
like a lot of land, Nevada has about 75 million acres, and it 
is just a tiny speck of land. Remember, 87 percent of the 75 
million is owned by the Federal Government.
    We believe that we need safe places to shoot. Even law 
enforcement is having difficulty finding places for their 
police officers to qualify and to maintain their ability to be 
police officers.
    This facility will benefit the public by establishing this 
facility in Las Vegas valley. It will enhance public safety, 
provide economic incentives to Las Vegas valley in the form of 
jobs and, of course, support services. That is why this has a 
literal--or I shouldn't say literal, the support of wide-
ranging organizations and people--Clark County Board of County 
Commissioners; Clark County Parks and Recreation; Clark County 
Parks and Recreation Advisory Boards; city of Henderson, now 
the second largest city in Nevada; Nevada State Majority 
Leader, Las Vegas Metropolitan Police Department; National 
Bench West Shooters Association; International Bench West 
Shooters; Las Vegas Convention Visitors Bureau; USA Shooting, 
which is the national governing body for the Olympic shooting 
sports; Las Vegas Trap Shooting Park.
    This is my favorite, the International Handgun Metallic 
Silhouette Association; the Single Action Shooting Society--I 
could go on and on. There are numerous organizations who spend 
their spare time shooting and they simply haven't had the 
opportunity to do that.
    We have numerous letters of support. One I received was 
from a Boy Scout. He writes, quote, ``My troop and I are 
looking forward to using the new shooting range. The range 
would provide our troop and other Boy Scouts with a safe area 
in which to earn our Scouting shooting merit badges. Thank you 
for sponsoring this bill and good luck in getting it passed.'' 

    So I say to the members of this Subcommittee, with your 
help today, I hope we can get the shooting range established, 
help this Boy Scout, his troop, and many others.
    [The prepared statement of Senator Reid follows:

Statement of The Honorable Harry Reid, a U.S. Senator from the State of 
                                 Nevada

    Mr. Chairman, I want to thank you for giving me the opportunity to 
tell you about a bill that's important to the people of Nevada and to 
me. This bill would transfer about 2,900 acres of public land to Clark 
County for use as a firearms training facility and recreational 
shooting range.
    As you may be aware, Clark County has grown rapidly over the last 
few decades: in just the last 12 years, for example, the county's 
population has almost doubled, from 770,000 to over 1.4 million. As 
more and more people have moved into the Las Vegas Valley, land that 
was once considered the ``back of beyond'' is now practically in 
people's backyards. This population growth, in turn, has stressed the 
land by increasing the demand for traditional public-land uses like 
hunting, fishing, and recreational target shooting.
    There are dozens--maybe hundreds--of makeshift shooting ranges 
scattered in and around the Las Vegas Valley. Shooting posed little 
risk when the ranges were located far from town, but as the Valley's 
population has continued to surge, activity in these places now 
endangers nearby homes and increasingly busy roads.
    My bill paves the way for a world-class shooting range, sports 
park, and firearms training facility by conveying 2,880 acres of public 
land to Clark County. This facility will provide the public with 
opportunities for education and recreation and provide a location for 
competitive events and firearms training. Development has also 
encroached upon facilities operated by the Metropolitan Police 
Department and North Las Vegas Police Department. The proposed new 
facility could also accommodate law enforcement training for firearms 
qualification and certification.
    Given the growing demand for safe places to shoot, it's important 
that the area be large enough to provide for public safety, not to 
mention the safety of the shooters themselves. I feel that this parcel 
is sufficient to make sure that shooting can take place without 
endangering the surrounding communities or the participants. The most 
important way to ensure a high degree of safety is to provide a 
significant buffer on all sides of the range.
    I strongly believe that a facility of this kind will provide 
significant public benefit. By establishing a world-class shooting 
range in the Las Vegas Valley, this bill will enhance public safety and 
provide economic incentives to the Las Vegas Valley in the form of jobs 
and support services. For these and other reasons, the following 
organizations and entities support my bill:
    <bullet> LClark County Board of Commissioners
    <bullet> LClark County Parks and Recreation Department
    <bullet> LClark County Parks and Recreation Advisory Board
    <bullet> LCity of Henderson City Council
    <bullet> LNevada State Senate Majority Leader
    <bullet> LLas Vegas Metropolitan Police Department
    <bullet> LThe National Bench Rest Shooters Association
    <bullet> LInternational Benchrest Shooters
    <bullet> LLas Vegas Convention and Visitors Authority
    <bullet> LUSA Shooting: National Governing Body for the Olympic 
Shooting Sports
    <bullet> LLas Vegas Trap Shooting Park
    <bullet> LThe International Handgun Metallic Silhouette Association
    <bullet> LSingle Action Shooting Society
    As the above list shows, I've received many letters of support. One 
that I received from a Boy Scout is particularly compelling. He writes, 
``My troop and I are looking forward to using the new shooting range. 
The range would provide our Troop and other Boy Scouts of America 
Troops with a safe area in which to earn our Shooting Merit Badges. 
Thank you for sponsoring this bill and good luck getting it passed.'' 
With your help today, I hope that we can get this shooting range 
established to help this Boy Scout and the many other people in Las 
Vegas Valley who will benefit from it.
    Once again, I want to thank you, Mr. Chairman, and the members of 
this Committee for holding a hearing on this important bill.
                                 ______
                                 
    Mr. Radanovich. Thank very much, Senator.
    Eni was planning, or thinking, that in my job as Chairman 
of this Committee, I needed to travel out to American Samoa to 
see this proposal here; but since I can just go to Nevada, I 
think I will probably--
    Senator Reid. What I would suggest is that when we, you and 
I, travel to American Samoa, we will stop in Las Vegas on the 
way.
    Mr. Radanovich. Eni, welcome. Please begin your testimony.

  STATEMENT OF THE HON. ENI F.H. FALEOMAVAEGA, A DELEGATE TO 
         CONGRESS FROM THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. And certainly I 
would like to--it is such an honor for our Subcommittee to have 
the presence of our distinguished majority whip, Senator Reid, 
here with us testifying in our Subcommittee. I also would like 
to offer my cosponsorship and support of my good friend's bill 
that is now being considered by our Subcommittee this 
afternoon, Congressman Gibbons.
    Mr. Chairman, I would like to ask, also, unanimous consent 
to have my statement be made part of the record.
    In essence, this is a culmination of some 4 years of study 
and preparation in the expanse of our humble and little 
national park there in the middle of the Pacific Ocean.
    Mr. Chairman, the very unique feature of our national park 
system in American Samoa is that it is the only tropical rain 
forest that we have in the United States. There are also some 
3- to 4,000 years of history and culture that go with this 
proposed expansion effort of the park. A lot of historical 
sites have not even been surveyed, and hopefully, this will be 
part of this proposal for expansion of the national park in 
American Samoa.
    I am also delighted to hear--and, hopefully, this will be a 
confirmed--I am told that our able and very good National Park 
Service is supportive of this proposal. That certainly makes my 
work a lot easier, even though I still have to depend a lot, 
tremendously, on you, Mr. Chairman, and our ranking member and 
members of our distinguished Subcommittee for your support and 
assistance in getting this legislation through.
    With that, in essence, I would welcome any questions that 
members of our Subcommittee might have on this bill.
    [The prepared statement of Mr. Faleomavaega follows:]

    Statement of The Honorable Eni F.H. Faleomavaega, a Delegate in 
               Congress from American Samoa, on H.R. 1712

    Mr. Chairman, I want to thank Chairman Hansen and Mr. Rahall, our 
full committee leaders, and Chairman Radanovich and Ms. Christensen 
with the Parks Subcommittee for their support in bringing this bill 
before the Committee today. H.R. 1712 will make adjustments to the 
boundary of the National Park of American Samoa.
    The U.S. territory of American Samoa is located approximately 2,400 
miles southwest of Hawaii, and the National Park of American Samoa is 
located on three separate islands: Tutuila, Ofu and Ta'u. The Islands 
of Ofu and Olosega, portions of which would be added to the park under 
this legislation, are small islands which lie adjacent to each other, 
and are connected by a short bridge.
    In 1998, I received requests from village chiefs from the Villages 
of Sili and Olosega, on the Island of Olosega, to include portions of 
their village lands within the National Park. The chiefs noted the 
important role the Park plays in preserving the natural and cultural 
resources of the territory, and indicated that the village councils 
believe there are significant cultural resources on village lands which 
warrant consideration for addition to the park.
    I asked the National Park Service to conduct a study to determine 
if there were in fact resources on the island which warranted inclusion 
in the park. The Park Service completed reconnaissance surveys of the 
Island of Olosega and of a portion of the Island of Ofu, and reported 
on both. The Service concluded in part:
    ``The archaeological significance of [Olosega Island] cannot be 
understated. Sites on the ridgeline and terraces may offer an important 
opportunity for the study and interpretation of ancient Samoa. The 
number and density of star mounds (31), the great number of modified 
terraces (46) and home sites (14), the subsistence system, and the 
artifacts available are all important findings. This is particularly 
significant in that they were recorded in only 3 days of visual surveys 
on only a portion of the island.''
    The National Park of American Samoa is continuing to develop. 
Established in 1988 by Public Law 100-571, the Park took several years 
to become operational. Today, however, tourists are visiting and school 
teachers are using the Park as an educational resource to help the 
students learn more about Samoan history and culture, the environment, 
and ecological conservation. The Park is preserving the area within its 
boundaries, but as the population grows--there was a 22% increase from 
1990 to 2000--considerable pressure is being placed on those 
undeveloped areas.
    The additions proposed by this legislation will preserve important 
sections of the remaining natural and cultural resources. Due to the 
historical significance and expedient nature of this matter, I ask my 
colleagues to support this legislation.
                                 ______
                                 
    [Attachments to Mr. Faleomavaega's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 77681.001
    
    [GRAPHIC] [TIFF OMITTED] 77681.002
    
    [GRAPHIC] [TIFF OMITTED] 77681.003
    
    [GRAPHIC] [TIFF OMITTED] 77681.004
    
    [GRAPHIC] [TIFF OMITTED] 77681.005
    
    [GRAPHIC] [TIFF OMITTED] 77681.006
    
    [GRAPHIC] [TIFF OMITTED] 77681.007
    
    Mr. Radanovich. Thank you, sir.
    The only question I might have on the islands, is there--
can you gauge the support for the expansion of the Park 
Service? Is it overwhelming? Is it 50-50?
    Mr. Faleomavaega. The island, as you see on this chart, Mr. 
Chairman, is about 60 miles from the main island. We don't have 
towns and cities as you would in Las Vegas or Los Angeles; we 
have villages. And in essence what we have in terms of the 
support that has been brought forth, at least to my attention, 
some 4 years ago, are the chiefs of the villages, the two basic 
villages that are here are very supportive of the national 
park. I believe you have them there, the letters that have been 
signed by the traditional leaders, as well as the members of 
the villages.
    If I would also like to add that I would really welcome 
you, Mr. Chairman and Donna and members of our Subcommittee. We 
would love to have you come and visit our little national park. 
We have--hopefully, if the bird-watchers of America will ever 
catch the word, we have a flying fox, or a bat that flies 
during the day. You know, you see most pictures of bats in 
caves and they only come out at night. We have a bat that flies 
during the day. I thought maybe this is something that bird-
watchers of America would come and love to see. It is there on 
our little island.
    I don't know how I could explain it further, Mr. Chairman. 
I realize we are isolated being out in the middle of the 
Pacific. Our isolation also could be a blessing in a way, Mr. 
Chairman, where we don't have too many tourists coming to 
visit. But more than anything the essence of this bill is 
preserving the archaeological historical sites that are found 
in these ancient places. They have just now discovered many 
artifacts and ancient ruins in the villages that were there 
hundreds of years ago. This is one reason why we are putting 
this bill forward--to preserve a lot of these historical sites.
    Mr. Radanovich. Well, looking at the pictures of the 
island, I wouldn't be going out there to see bats. The beaches 
and the mountains look just incredible, just gorgeous.
    Donna, did you have any questions?
    Mrs. Christensen. I would want to just follow up on the 
same questions you asked at first, because as we are doing some 
expansion to our parks, through monuments, we have a lot of 
concerns in our fishing community with that, an area that is 
usually fished.
    Would your fishermen be in that area and will they now be 
restricted from fishing? Has there been any concern raised 
about that?
    Mr. Faleomavaega. There has been no concern on any of the 
fishing activities, mainly because our fishing activity within 
the surroundings is really for subsistence. It is not for 
commercial purposes, even though, ironically, I do have the 
largest tuna canning facility in the world. But they don't fish 
around these areas; they fish in the central and eastern 
waters, deep water fishing.
    Mrs. Christensen. In the Virgin Islands, it doesn't make 
any difference whether it was commercial or recreational, 
subsistence, any fishing, we still had a large outcry from our 
fishing community. But that is not the case with this one?
    Mr. Faleomavaega. No, because I think your tourism industry 
is probably a hundred times bigger than ours. That is the 
advantage when you have visitors; this is where a lot of the 
recreational fishing comes into play. We don't have that as 
much, not at all.
    Mrs. Christensen. I am interested not in the tourists, but 
how about from the native Samoan community?
    Mr. Faleomavaega. Like I said, the natives fish a lot, but 
it is not for trying to make a $150 million industry out of it. 
It is basically for subsistence living.
    Mrs. Christensen. They have no problem with the expansion 
of the park?
    Mr. Faleomavaega. No, not at all.
    Mrs. Christensen. Thank you.
    Mr. Gibbons. [Presiding.] Thank you. I want to tell you 
that I have been to Pago Pago and American Samoa. If this were 
in Nevada, the whole thing would be a park; it is that 
beautiful. You live in a very pretty part of the world. I fully 
understand your enthusiasm for the project that you have 
brought before us.
    I have no questions, I just want to thank you for telling 
us a little more about it and having the opportunity to work 
with you on this bill. And we certainly think that it is a very 
worthwhile project to do.
    Mr. Faleomavaega. Even though this is an unrelated issue, I 
am dead serious about the situation about the Yucca Mountain. I 
would more than happy to sign any petition, any resolution, 
anything.
    Mr. Gibbons. Believe me, as we go down the road, there will 
be plenty for you to do on that.
    Mr. Faleomavaega. I say this with sensitivity, Jim, because 
you know my region has experienced more the situation of our 
government detonating 66 nuclear bombs in the Marshall Islands, 
not too far from where we are and where we exploded the Bravo 
shot.
    I don't know--many American don't realize it; this is where 
we exploded the hydrogen bomb that was 1,000 times more lethal 
than the bombs we dropped in Nagasaki and literally blew an 
island out of existence.
    And then many Americans don't know that the French 
Government also exploded over 200 nuclear bombs in the South 
Pacific. So the sensitivity about nuclear waste and nuclear 
anything comes very, very high, in my opinion, in terms of the 
experiences that we have had to go through. With respect to 
some 3 million people living in the State of Nevada, why should 
you have to be the recipient of nuclear waste of our other 
fellow--sister states.
    It seems to me the common logic would say, why not 
establish regional centers that if you want to use nuclear 
energy as part of your resource, then you should take care of 
it. But why should Nevada be the dumping ground?
    One issue that I am really curious about is how the 
administration as well as the Congress are going to grapple 
with whose towns are going to be the sacrificial lambs when 
these things are going to be transported? What cities? What 
rural areas are going to be the ones that are going to be the 
sacrificial lambs if anything goes wrong with the 
transportation of this contaminated nuclear waste?
    It is something that I am very curious about how the Energy 
Department is going to come up with a solution to that.
    But anyway, I know this is unrelated, but I want to let you 
know that I offer to assist the Nevada delegation in fighting 
this. I think it is a most unfair policy to heap upon one State 
to benefit of the rest. It is not right.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you. Sometimes science overtakes 
politics and politics overtake science. This is one of those 
cases. But I appreciate your eloquence and your insight into 
the issue, and your friendship on that as well.
    I would like to call up our next panel, which is going to 
be composed of Mr. John Reynolds, regional director of the 
Pacific West Region, National Park Service; Mr. Carson Pete 
Culp, who is the Assistant Director of Minerals, Realty, and 
Resource Protection, Bureau of Land Management, and the great 
Honorable John Lee, Assemblyman from the State of Nevada.
    Mr. Gibbons. John, welcome. John is one of the more 
articulate public servants that we have from the Las Vegas 
area, District 3 in the State of Nevada. He very ably 
represents his area, and he will be able to talk to us about 
this legislation as well.
    In fact, what I will do, John, just because of your 
position in the legislature, I will turn to you and let you 
make your opening remarks first. I want to welcome you to the 
Committee. If you will try to summarize your remarks within a 
5-minute timeframe, we will answer questions and go to the 
other gentlemen as well.

 STATEMENT OF THE HON. JOHN J. LEE, ASSEMBLYMAN, NEVADA STATE 
                          LEGISLATURE

    Mr. Lee. Thank you. My talk starts out ``Chairman 
Radanovich,'' but I am much more excited to call it ``Vice 
Chairman Gibbons'' today. It is nice to see another Nevadan 
serving so well here.
    Vice Chairman Gibbons and members of the Committee, I am 
John J. Lee. I represent Clark County, Assembly District 3, 
which is the metropolitan area of Las Vegas. I am appearing 
today on behalf of the State legislature to speak in favor of 
H.R. 3937. During its last session, the Nevada legislature 
unanimously approved Assembly Joint Resolution 6 that called 
upon Congress to support the release of property in Clark 
County, controlled by the Bureau of Land Management, for the 
development of a regional shooting park.
    In Nevada, as in many other parts of the Western United 
States, firearms enthusiasts use public lands as places to 
practice their hobby. Shooters go out in the desert with a few 
paper targets or a stack of tin cans to sight in their rifles 
or hone their shooting skills.
    In recent years, the BLM or local governments have 
restricted shooting in many areas, forcing hobbyists to travel 
to more remote locations. Unfortunately, some ignore these 
restrictions and continue to shoot near settled areas.
    As you may know, Las Vegas is the fastest growing 
metropolitan area in the Nation. Las Vegas is located on open 
desert, surrounded by Federal lands. Unlike most other cities, 
it does not have a surrounding buffer of farms or other private 
property. Instead, outlying housing developments are 
immediately adjacent to public lands where sports shooters have 
practiced for years and which they feel entitled to continue to 
use. This situation poses a serious hazard to the public.
    Two years ago a stray bullet killed a Las Vegas police 
officer. In November 1999, an errant round struck a vehicle in 
the local campground, and an accidental shooting killed a local 
man. Residents of the outlying subdivisions are beginning to 
voice complaints about near misses and the dangers 
indiscriminate shooting poses to their lives and property.
    The need for a shooting park is evident. The citizens of 
southern Nevada own an estimated 400,000 registered handguns 
and an untold number of hunting rifles and shotguns. About 
13,000 citizens hold concealed weapons permits. These persons 
must periodically demonstrate their firearms proficiency. In 
addition, there are 3,000 police officers, several thousand 
private security guards and a large number of law enforcement 
personnel employed by the Nevada Highway Patrol, the FBI, the 
Secret Service and other State or Federal agencies that need a 
safe, accessible area in which to train.
    The proposed park would accommodate shooters of all kinds. 
This facility would address recreational needs, gun safety 
training classes, courses required for hunting licenses, and 
local and national competitive events. It would include 
facilities for archery, pistol practice, rifle shooting and 
shotguns. It would incorporate a variety of safety features, 
including buffer areas, backdrops and safety berms. It would 
include access roads, parking areas, rest rooms and other 
facilities to make the area safe, comfortable and convenient.
    The proposed shooting park which has been described to you 
today would have several benefits. First, it would reduce the 
amount of indiscriminate shooting that occurs on the fringes of 
our city. This shooting poses a serious hazard. Shooters must 
share public lands with hikers, bicyclists, motorcyclists, off-
road vehicle enthusiasts, horseback riders and campers. In 
recent years, this competition among these various users of 
public lands has become more intense. In some cases, the BLM 
has closed part of the public lands to shooters, leaving them 
with few areas in which they can pursue their sport.
    In addition, because the BLM does not have the staff to 
supervise these activities, the danger of indiscriminate 
shooting has increased, even in areas where shooting has been 
banned.
    Second, the unsupervised shooting on public lands poses 
environmental problems. In many areas, shooters leave behind 
garbage and debris, harm wildlife, cut dusty trails and roads 
or vandalize natural wilderness areas. Providing a suitable 
location for shooting can reduce these problems.
    Third, the shooting park would replace facilities in the 
Las Vegas area that must be closed in the near future because 
of encroaching development. These include a police firearms 
training facility operated by the Las Vegas Metropolitan Police 
Department and an archery range that must be relocated to make 
way for the development of a wetlands park. In addition, 
several private shooting clubs have been recently forced to 
close by nearby residential or commercial developments.
    Fourth, the regional shooting range would provide a venue 
for regional and national shooting competitions, adding an 
important attraction to our area's tourist-based economy which 
has been severely affected by the recent fall in tourist 
travel. This project has the enthusiastic support of the 
legislature and the people of Nevada. It has been endorsed by 
our law enforcement agencies, sports shooting clubs, the Sierra 
Club, and other environmental groups. In the entire time I have 
worked on this issue, I have yet to encounter anyone who is 
opposed to this project.
    In conclusion, speaking on behalf of the Nevada 
legislature, and my own constituents in southern Nevada, I urge 
the Subcommittee to approve this measure that you have before 
you today.
    Thank you, Congressman Gibbons, for your full support and 
concern.
    Mr. Gibbons. Thank you very much.
    [The prepared statement of Mr. Lee follows:]

 Statement of The Honorable John J. Lee, Nevada State Assemblyman, on 
                               H.R. 2937

    Chairman Radanovich and members of the committee, I am Nevada State 
Assemblyman John J. Lee. I represent Clark County Assembly District No. 
3, which is in the metropolitan Las Vegas area. I am appearing today on 
behalf of the Nevada State Legislature to speak in speak in favor of 
H.R. 2937.
    During its last session, the Nevada Legislature unanimously 
approved Assembly Joint Resolution No. 6 that calls upon Congress to 
support the release of property in Clark County controlled by the 
Bureau of Land Management (BLM) for the development of a regional 
shooting park.
    In Nevada, as in many other parts of the western United States, 
firearms enthusiasts use public lands as a place to practice their 
hobby. Shooters go out into the desert with a few paper targets or a 
stack of tin cans to site in their rifles or hone their shooting 
skills. In recent years, the BLM or local governments have restricted 
shooting in many areas, forcing hobbyists to travel to more remote 
locations. Unfortunately, some ignore these restrictions and continue 
to shoot near settled areas.
    As you may know, Las Vegas is the fastest growing metropolitan area 
in the nation. Las Vegas is located in an open desert surround by 
Federal lands. Unlike most other cities, it does not have a surrounding 
buffer of farms and other private property. Instead, outlying housing 
developments are immediately adjacent to public lands where sports 
shooters have practiced for years and which they feel entitled to 
continue to use.
    This situation poses a serious hazard to the public. Two years ago, 
a stray bullet killed a Las Vegas police officer. In November 1999, an 
errant round struck a vehicle in a local campground, and an accidental 
shooting recently killed a local man. Residents of outlying 
subdivisions are beginning to voice complaints about near misses and 
the dangers indiscriminate shooting poses to their lives and property.
    The need for a shooting park is evident. The citizens of southern 
Nevada own an estimated 400,000 registered handguns and an untold 
number of hunting rifles and shot guns. About 13,000 citizens hold 
concealed weapons permits. These persons must periodically demonstrate 
their firearms proficiency. In addition, there are 3,000 police 
officers, several thousand private security guards, and a large number 
of other law enforcement personnel employed by the Nevada Highway 
Patrol, the FBI, the Secret Service and other state or Federal agencies 
that need a safe, accessible area in which to train.
    The proposed park would accommodate shooters of all kinds. This 
facility would address recreational needs, gun safety training classes, 
courses required for hunting licenses, and local and national 
competitive events. It would include facilities for archery, pistol 
practice, rifle shooting, and shotguns. It would incorporate a variety 
of safety features, including buffer areas, backdrops, and safety 
berms. It would include access roads, parking areas, restrooms, and 
other facilities to make the area safe, comfortable, and convenient.
    The proposed shooting park, which has been described to you today, 
would have several benefits. First, it would reduce the amount of 
indiscriminate shooting that occurs on the fringes of our city. This 
shooting poses a serious hazard. Shooters must share public lands with 
hikers, bicyclists, motorcyclists, off-road vehicle enthusiasts, 
horseback riders, and campers. In recent years, this competition among 
these various users of public lands has become more intense. In some 
cases, the BLM has closed parts of the public lands to shooters, 
leaving them with few areas in which they can pursue their sport. In 
addition, because the BLM does not have the staff to supervise these 
activities, the danger of indiscriminate shooting has increased even in 
areas where shooting has been banned.
    Second, unsupervised shooting on public lands poses environmental 
problems. In many areas, shooters leave behind garbage and debris, harm 
wildlife, cut dusty trails and roads, or vandalize natural wilderness 
areas. Providing a suitable location for shooting can reduce these 
problems.
    Third, the shooting park would replace facilities in the Las Vegas 
area that must be closed in the near future because of encroaching 
development. These include a police firearms training facility operated 
by the Las Vegas Metropolitan Police Department and an archery range 
that must be relocated to make way for the development of a wetlands 
park. In addition, several private shooting clubs have recently been 
forced to close by nearby residential or commercial developments.
    Fourth, the regional shooting range would provide a venue for 
regional and national shooting competitions, adding an important 
attraction to our area's tourist-based economy, which has been severely 
effected by the recent fall in tourist travel.
    This project has the enthusiastic support of the Legislature and 
the people of Nevada. It has been endorsed by our law enforcement 
agencies, sports shooting clubs, the Sierra Club, and other 
environmental groups. In the entire time I have worked on this issue, I 
have yet to encounter anyone who is opposed to this project.
    In conclusion, speaking on behalf of the Nevada Legislature and my 
own constituents in southern Nevada, I urge this subcommittee to 
approve the measure that you have before you today.
    Thank you.
                                 ______
                                 
    Mr. Gibbons. Mr. Culp, the Assistant Director for Resource 
Protection, Bureau of Land Management.
    Mr. Culp.

 STATEMENT OF CARSON PETE CULP, ASSISTANT DIRECTOR, MINERALS, 
   REALTY AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT

    Mr. Culp. Thank you, Mr. Chairman and members of the 
Committee. I appear before you today to give you the 
administration's views on H.R. 2937, which is--as you have 
indicated, is a bill to provide for the conveyance of certain 
public lands in Clark County for use as a shooting range. A 
hearing on H.R. 2937's companion bill in the Senate, S. 1451, 
took place on November 27th, of last year. Our position on H.R. 
2937 remains unchanged; the Bureau of Land Management supports 
the bill with suggested changes.
    The bill would provide special disposal authority, as has 
been noted, for 2,800 acres in Clark County to the county for a 
centralized shooting facility. It is worth noting that this 
kind of transfer could occur under the Recreation and Public 
Purposes Act which authorizes us to transfer lands for 
recreation purposes up to a total of 6,400 acres; but because 
this land will be used both for recreation and for other 
activities, as Mr. Lee and others have noted--for example, by 
local law enforcement for training purposes--it falls under the 
640-acre limitation in the R&PP acts. So the reason for the 
legislation is essentially a technical one to deal with that 
acreage limitation which we believe would apply.
    In terms of suggestions for technical changes to the bill, 
I will just mention two very briefly. One is, enactment of the 
bill will result in certain administrative costs for BLM, 
particularly the cost of a new survey to make certain that we 
have correctly delineated the property boundaries. So one of 
the suggested amendments that we have would be to include 
language in the bill that would provide for compensation from 
Clark County for the administrative costs of the transfer.
    And then, Mr. Gibbons, you mentioned the reverter. We would 
recommend a provision that, should it ever be necessary to 
exercise the reverter--and we hope that wouldn't be the case--
the county would be responsible for cleaning up any lead or 
other hazardous materials that might exist as the result of the 
activity.
    That concludes my statement, and I would be happy to answer 
any questions.
    Mr. Gibbons. Thank you very much, Mr. Culp.
    [The prepared statement of Mr. Culp follows:]

Statement of Carson Pete Culp, Assistant Director, Minerals, Realty and 
Resource Protection, Bureau of Land Management, U.S. Department of the 
                         Interior, on H.R. 2937

    Good afternoon Mr. Chairman and Members of the Committee. I appear 
before you today to give the Administration's views regarding H.R. 
2937, a bill to provide for the conveyance of certain public lands in 
Clark County, Nevada for use as a shooting range. A hearing on H.R. 
2937's companion bill, S. 1451, took place on November 27, 2001. Our 
position on H.R. 2937 remains unchanged. The Bureau of Land Management 
(BLM) supports the bill with suggested changes.
    H.R. 2937 provides the Secretary of the Interior with special 
disposal authority to convey 2,880 acres of BLM administered lands in 
Clark County, Nevada, to the County for the establishment of a 
centralized shooting facility in the Las Vegas valley.
    In the Recreation and Public Purposes Act (R&PP), Congress 
recognized the benefit of conveying BLM-managed public lands to local 
governments without compensation for recreation purposes. The R&PP Act 
limits conveyances for public purposes other than recreation to 640 
acres. Because this land will be used as a target range both for 
recreational purposes and for training of local law enforcement 
officers, the 640 acre limitation appears to apply and this legislation 
is needed.
    We would like to suggest a few changes to this legislation to 
improve the administration of this bill if enacted and would be pleased 
to work with the committee to address these concerns.
    The conveyance of these lands by the BLM will result in certain 
administrative costs. For example, a resurvey will likely be required 
since the area would have common property boundaries with other land 
owners that could create use conflicts without a specific defined 
property boundary. For this reason we suggest that the bill be amended 
to include language providing compensation by Clark County to the BLM 
for survey costs and other administrative costs related to the 
preparation of patents and transfer of title.
    Additionally, the United States must avoid the potential for 
hazardous waste liability from any property reverted to the United 
States under Section 1 (e) (2) of the bill. We suggest an amendment 
that Clark County be required to clean up any hazardous waste 
contamination prior to reversion to the United States.
    This concludes my statement. I would be happy to answer any 
questions.
                                 ______
                                 
    Mr. Gibbons. We will turn now for the testimony from Mr. 
John Reynolds, Regional Director, Pacific West Region, National 
Park Service.
    Mr. Reynolds, welcome.

STATEMENT OF JOHN J. REYNOLDS, REGIONAL DIRECTOR, PACIFIC WEST 
                 REGION, NATIONAL PARK SERVICE

    Mr. Reynolds. Thank you very much. It is a pleasure to be 
here with you all today. I thank you for the opportunity to 
present the Department of Interior's views on H.R. 1712 to 
authorize adjustments to the boundary of the National Park of 
American Samoa, Ofu and Olosega. I am only going to present a 
portion of the testimony--the rest is provided for the record, 
with your permission--and will do so now.
    Mr. Gibbons. Without objection.
    Mr. Reynolds. The Department does not oppose H.R. 1712. We 
do, however, suggest some amendments as outlined in my 
testimony. The legislation will provide authority for the 
Secretary of the Interior to adjust the boundary of the 
National Park of American Samoa to include up to approximately 
1,000 acres of land on the island of Olosega, and up to 
approximately 450 acres on the island of Ofu, and approximately 
1,500 acres of ocean waters, offshore to both islands.
    The lands on the island of Olosega and the adjacent 
offshore waters will add important cultural, biological and 
marine resources to the national park. The lands of the islands 
of Ofu will ensure the long-term protection of important and 
fragile coral reef resources presently within the national 
park, but obviously downstream from the hillside.
    The law that established the national park does not provide 
authority for the National Park Service to acquire parklands, 
but instead requires that lands must be leased from the 
Governor of American Samoa. Lands within the authorized 
boundary expansion would be added to the park incrementally, 
based on future discussions with village landowners and 
modification of the existing leases.
    The park's enabling legislation places the responsibility 
for determining the value of the leases with the High Court of 
American Samoa. As a point of reference, the park currently 
leases approximately 8,000 acres for $419,000 annually.
    The offshore waters would be leased at no cost from the 
Government of American Samoa. No development is contemplated 
within the boundary adjustment areas, so no line item 
construction or significant development costs are anticipated 
in connection with the bill.
    In March 1998, the Olosega village council noted in a 
letter to Congressman Faleomavaega that the national park has 
contributed much to the preservation of Samoan culture, the 
rain forest and the coral reef. In addition, the council noted 
that the park has also been a positive factor to the economic 
well-being of the territory through tourism and lease payments 
to the villages. The village council of Olosega expressed its 
wish for a part of this valuable conservation effort of the 
national park, and I quote, ``We are pleased that this has been 
a grass-roots effort by the community.'' the letter was signed 
by the entire village council.
    Also significant was the inclusion of the coral reefs 
around portions of Olosega within the park, which would further 
the Governor's directive to local agencies to protect 20 
percent of the territory's coral reefs. At present, about 6 
percent of the territory's reefs are protected.
    We recommend an amendment to the bill to eliminate the word 
``minor'' when referring to the boundary adjustments, ``the 
Land and Water Conservation Fund Act provides the Secretary of 
the Interior with the authority to make minor boundary 
adjustments and defines the conditions that are considered to 
be minor.'' Because the boundary adjustments addressed by this 
bill would not meet those criteria, we suggest that the term be 
deleted from the bill in order to avoid confusion.
    We also recommend an amendment to include a map reference 
in the bill in order to clarify the lands to be included.
    I would like to note that, having been over to both of 
these islands and spent some time both on the island and in the 
water, this is one of the most marvelous parks in the system. I 
say that after just having spent 10 days on vacation in the 
Virgin Islands park. It is pretty nice to be able to say that 
both of these, both of these resources, are part of America's 
most wonderful heritage.
    The park in American Samoa, the upper land habitat in this 
park, is absolutely unique in the world. It is a most amazing 
place. The bird life is marvelous, it is unique, and it is 
unspoiled. And I can assure you, if you don't have a lot of 
interest in bats and you see one of these bats that the 
Congressman referred to, you will never think of bats in the 
same way again. They are absolutely out of the experience of 
any of us who have never seen them before.
    The star mounds, the archaeological resources that are 
referred to, are some of the most exciting and inspirational 
archaeological resources that you can ever stand in front of in 
an entire lifetime. The culture and all of these resources are 
part of the native culture of the American Samoan, of the 
native Samoan. It is this tie between the culture and this 
particular nature of the national park that is not repeated 
anywhere else in the national park system that is so important 
for this addition.
    Thank you for allowing me to testify today. I would be more 
than happy to answer any questions that haven't been addressed.
    Mr. Gibbons. Thank you very much, Mr. Reynolds.
    [The prepared statement of Mr. Reynolds follows:]

Statement of John J. Reynolds, Regional Director, Pacific West Region, 
 National Park Service, U.S. Department of the Interior, on H.R. 1712,

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1712, a bill to authorize 
the Secretary of the Interior to make minor adjustments to the boundary 
of the National Park of American Samoa, to include certain lands of the 
islands of Ofu and Olosega within the park, and for other purposes.
    The Department does not oppose H.R. 1712. We do, however, suggest 
amendments as outlined in this testimony. This legislation will provide 
authority for the Secretary of the Interior to adjust the boundary of 
the National Park of American Samoa to include up to approximately 
1,000 acres of land on the island of Olosega, up to approximately 450 
acres on the island of Ofu, and approximately 1,500 acres of ocean 
waters offshore of Olosega and Ofu. The lands on the island of Olosega 
and the adjacent offshore waters will add important cultural, 
biological and marine resources to the national park. The lands on the 
island of Ofu will ensure the long-term protection of important and 
fragile coral reef resources presently within the national park.
    Proposed additions on Ofu contain excellent wildlife and coral reef 
habitats. Currently, only a strip of sand beach and the associated 
coral reef are within the national park boundary on Ofu. This coastal 
area contains a world-class coral reef area of remarkably high 
diversity and beauty. The proposed addition would protect the upland 
watershed so that the coral reef would not be impaired by non-park 
developments. Coastal areas on the north side of Ofu are proposed 
because of the exceptionally healthy and diverse coral communities 
found there, and because the north shores of Ofu and Olosega are 
connected and constitute a single coral reef ecosystem.
    The archeological resources found on Olosega between the 300 and 
800-foot elevations are not only important, but are unique in American 
Samoa. Unique to Olosega are the number of star mounds and what appears 
to be a remnant agro-forestry system. Archeological reconnaissance 
surveys carried out on Olosega in July 1999 by the National Park 
Service and the University of North Dakota's Department of Anthropology 
identified 31 star mounds, 46 modified terraces, 14 house platforms, an 
elevated grave site believed to be associated with the Tui Olosega 
(King of Olosega), and numerous stone tools. Star mounds are massive 
rock platforms with radiating arms built by the ancient Samomans for 
cultural and sporting events. Up until 1999, star mounds were known to 
exist only on Upolo (in Samoa) and Tutuila islands. Archeologists 
believe the agro-forestry system found on Olosega, with further study, 
could prove to be an agricultural system that existed in relative 
equilibrium with the native forest system. Most of the sites and 
artifacts found on Olosega were well preserved.
    Also in 1999, a survey of Olosega's biotic resources by the park's 
wildlife biologist found that the unoccupied portions of the island 
provide excellent habitat for native wildlife. Large tracts of land on 
Olosega remain relatively wild and the island is free of many of the 
introduced species that compete with the native wildlife within the 
park on Tutuila. In addition, Olosega includes the presence of the 
rarer bird species that occur in American Samoa. Fiji shrikebill, 
uncommon on the other islands, were consistently seen on Olosega during 
the 1999 survey. The Friendly ground dove and the Blue-crowned lory are 
also present. The Friendly ground dove is a candidate for listing as an 
endangered species. Biologists believe the shrikebill found on Olosega 
may be a separate subspecies found only on the Manu'a Islands.
    Although Olosega shares the same fauna found on the other islands 
of American Samoa, the species composition of the forest trees is 
somewhat unique. The 1999 survey found a high concentration of Samoan 
medicinal plants. Many of these medicinal plants are disappearing from 
the native forests of Samoa. The survey also found that the area 
between the 200 and 800-foot elevation represented a traditional mixed 
agro-forestry system developed over decades of manipulation and 
cultural use. The system appeared to be relatively stable and may have 
reached a sustainable equilibrium.
    Small populations of two species of flying foxes are believed to 
exist on Olosega. Protection of these fruit-eating bats is included in 
the park's enabling legislation. In addition, there are indications 
that a few individuals of the nearly extirpated sheath-tailed bat are 
present on Olosega. This small insectivorous bat is a candidate for 
listing as an endangered species and is not currently found within the 
existing boundary of the park.
    The coastal and marine areas of Olosega contain rich coral and fish 
communities and would complement the Ofu reef currently included within 
the park boundary. Surveys have found that Olosega's offshore waters 
are among the richest and most densely populated with fish species in 
the entire Samoan archipelago. Both the endangered Hawksbill and the 
threatened Green sea turtles are present in Olosega's offshore waters. 
The U.S. Fish and Wildlife Service and the National Marine Fisheries 
Service believe that the Hawksbill turtle is a species rapidly 
approaching extinction, making its protection in Olosega's reefs and 
offshore waters of vital importance.
    The law that established the National Park of American Samoa does 
not provide the authority for the National Park Service to acquire park 
lands, but instead requires that lands must be leased from the Governor 
of American Samoa. Lands within the authorized boundary expansion would 
be added to the park incrementally, based on future discussions with 
village landowners and modification of the existing lease. The park's 
enabling legislation places the responsibility for determining the 
rental value of lands to be leased for the national park with the High 
Court of American Samoa. As a point of reference, the park currently 
leases approximately 8,000 acres for $419,000 annually. The offshore 
waters would be leased from the Government of American Samoa at no 
cost. No development is contemplated within the boundary adjustment 
areas, so no line-item construction or significant development costs 
are anticipated in connection with H.R. 1712.
    In March 1998, the Olosenga Village Council noted in a letter to 
American Samoa's Congressional representative, Congressman Eni F.H. 
Faleomavaega, that the national park has contributed much to the 
preservation of Samoan culture, the rainforest and the coral reef. In 
addition, the council noted that the park has also been a positive 
factor to the economic well-being of the territory through tourism and 
lease payments to the villages in the park. The village council of 
Olosega expressed its support for expansion of the park boundaries, and 
we are pleased that this has been a grassroots effort supported by the 
community.
    Also significant would be inclusion of the coral reefs around 
portions of Olosega within the national park, which would further the 
Governor's directive to local agencies to protect 20 percent of the 
territory's coral reefs. At present, only about six percent of the 
territory's reefs are in protected areas.
    We recommend an amendment to the bill to eliminate the word 
``minor'' when referring to the boundary adjustment. The Land and Water 
Conservation Fund Act (LWCF), as amended, provides the Secretary of the 
Interior with the authority to make minor boundary adjustments, and 
defines the conditions that are considered to be minor. Because the 
boundary adjustment addressed by H.R. 1712 would not meet those 
criteria, we suggest that the term be deleted from the bill in order to 
avoid confusion between its use in H.R. 1712 and the definition 
provided in the LWCF.
    We also recommend an amendment to include a map reference in the 
bill in order to clarify the lands to be included in the boundary 
adjustment. Both of the suggested amendments are attached to this 
testimony.
    This concludes my testimony. I would be glad to answer any 
questions that you or members of the subcommittee may have.
                    Proposed amendments to H.R. 1712
    In the title of the bill and on page 2, line 5 strike ``minor''.
    On page 2, line 7, after Olosega insert ``as depicted on the map 
entitled ``National Park of American Samoa, Proposed Boundary 
Adjustment'', numbered 82,035 and dated Feb 2002''.
                                 ______
                                 
    Mr. Gibbons. Mrs. Christensen.
    Mrs. Christensen. Thank you. I welcome the panelists today.
    I wanted to ask a question to Mr. Culp on H.R. 2937. In 
your written testimony and what you gave to us today, you noted 
that the legislation was required because the authority to 
transfer land for nonrecreational purposes under R&PP is 
limited at 640 acres. But seeing that it leaves out another 
important reason why legislation might be needed, that 
doesn't--not only--R&PP does not cover this transaction not 
only because of size, as I understand it, but more importantly, 
because it only covers land identified for disposal, which does 
not cover wilderness study areas. Isn't that correct?
    Mr. Culp. That is correct, yes. And, actually there is 
another reason.
    Our land use planning requirements would--without this 
legislation, would require a plan amendment to identify the 
lands for disposal. So the legislation takes care of both the 
wilderness study area release requirement and the land use 
planning requirement.
    Mrs. Christensen. OK. In my opening remarks, I asked--I 
questioned the size of it. And I completely understand the need 
for safety, but it still seems a bit large. Are there 
associations that set standards for the size of buffer areas, 
recommend standard sizes for buffer areas? And anyone that 
might be able to answer this, either you or the state 
assemblyman, I am trying to figure out whether this 1,400 acres 
is a standard buffer area. It still seems a bit large.
    Mr. Gibbons. Let me say that the National Association of 
Shooting Ranges establishes the boundaries in areas. It is 
based upon the projected trajectory of a bullet's travel, and 
all of that is taken into consideration. They set the standards 
for areas like this.
    Mrs. Christensen. Would fees be set for the use of the 
range? Will there be any fees for the use of those?
    Mr. Gibbons. Yes. I believe there would be a fee set for 
the utilization of the range by any person or a group.
    Mrs. Christensen. One other question: Did the BLM ever 
approach Clark County about paying fair market value for the 
land?
    Mr. Culp. I don't believe that we did. As I indicated, this 
is very close to a Recreation and Public Purposes Act 
transaction. And that law provides that we can do these 
transfers without compensation; or certain kinds of transfers, 
there is a very minimum compensation of, like, $1.50 an acre.
    Mrs. Christensen. I don't have any further questions.
    Mr. Gibbons. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I would like to 
ask Mr. Culp a couple of questions.
    Is this land situated somewhere with the mountain as a 
background, or is this flat desert out? Most target areas 
usually would have kind of like a high wall, like a mountain 
that you can shoot into. Is this the case? Can you give me an 
idea what the land situation looks like?
    Mr. Culp. Actually, I have been close to there, but I 
haven't been there personally. It is immediately south of the 
Desert National Wildlife Refuge.
    My guess is that Mr. Lee could maybe help.
    Mr. Faleomavaega. I just got a copy of the map. I have 
been, what do you call it, given a tremendous orientation on 
where I am at.
    Mr. Lee. Yes, sir. It is on the skirt on the northern part 
of the mountain. It aims to the north where the sun will never 
be in the shooters' eyes. In that area are the headwaters to 
Lake Mead. So we have--some of that acreage is just total wash 
area, too, yes, sir.
    Mr. Faleomavaega. What are we looking at in anticipation of 
community use for purposes of a target range? How many people 
may be using this facility once it is open?
    Mr. Lee. We believe there will be about 144,000 shooter 
days, shooter-person days a year.
    We also, if you know anything about Las Vegas--
    Mr. Faleomavaega. I know a little bit about it. I have 
heard of Henderson.
    Mr. Lee. We are excited about the world-class things we do 
there. We are going to build a world-class shooting arena so 
that people who come visit can also participate. We are 
expecting about a $4-a-day shooting day fee for someone to be 
able to use the facility, the residents of Clark County.
    Mr. Faleomavaega. I would think that with all the tourists, 
it would also be they would like to do recreational shooting as 
well.
    Mr. Lee. There are many organizations, the cowboy shooters 
and national organizations, that would love to come out. We 
have the hotel rooms, the facilities close by. We are within 30 
minutes of the downtown metropolitan Las Vegas area. So we have 
a beautiful location for it.
    Mr. Faleomavaega. You still have a lot of cowboys in 
Nevada?
    Mr. Lee. I would tell you that Mr. Gibbons probably wears 
cowboy boots. There are quite a few people that have that 
heritage. Very safe, friendly people, though.
    Mr. Faleomavaega. I see. So they are real good country 
folk.
    Where is this--I am here again pleading ignorance. Where is 
the Yucca Mountain from Las Vegas?
    Mr. Lee. We are probably in the northerly direction.
    Mr. Faleomavaega. So Yucca is only about 90 miles north of 
Las Vegas. I don't why I keep referring to Yucca Mountain; I 
must have some obsession with it. I don't know what it is.
    The conveyance, Mr. Culp, the administration does not 
object to this proposal?
    Mr. Culp. We do not. We support the proposal.
    Mr. Faleomavaega. Mr. Reynolds, I would like to have you 
come and testify on any park bill that I propose from now on. 
Thank you so much for your testimony.
    We have approximately, about, almost 60 species of birds 
that are not found anywhere in the United States that are in 
our little island, if you will.
    And it might also be noted of some historical import, this 
little group of islands, one of the islands, this is where 
Margaret Mead came and conducted her so-called scientific study 
about the sex habits of Samoans, which I deeply resent; nor do 
I actually accept her scientific findings about the social 
behavior of Samoans in that regard.
    But I do really appreciate, Mr. Reynolds, your presence and 
your testimony. And I sincerely appreciate also the 
recommendations that you have offered in this legislation, so 
we can make improvements on it.
    I invite everybody in this room to come to my little 
islands, pay your own way, but you are more than welcome to 
come and visit my little islands, and we will be happy to take 
you fishing. I don't know if we can do any squirrel hunting.
    Do you do that in Nevada still, Mr. Chairman?
    Mr. Gibbons. If we had any squirrels, we would.
    Mr. Faleomavaega. I don't have any more questions. Thank 
you, Mr. Chairman. Thank you, members of the panel.
    Mr. Gibbons. Thank you. I would also invite to you Las 
Vegas. We will strap you on a couple of six-shooters and take 
you out to the shooting range.
    Gentlemen, I want to thank you very much for your time, 
your patience and your contribution to the process here today. 
It is a pleasure to have your testimony before us.
    With that, if there are no further questions, we will 
excuse the panel. And with that, this hearing is adjourned.
    [Whereupon, at 3 p.m., the Subcommittee was adjourned.]

    [A statement submitted for the record by Brian O'Donnell, 
Associate Director, Wilderness Support Center, The Wilderness 
Society, on H.R. 2937 follows:]

 Statement of Brian O'Donnell, Associate Director, Wilderness Support 
  Center, The Wilderness Society, on behalf of the Nevada Wilderness 
                               Coalition

    On behalf of the Nevada Wilderness Coalition, thank you for the 
opportunity to present written testimony on H.R. 2937, legislation to 
provide for the conveyance of certain public land in Clark County, 
Nevada, for use as a shooting range.
    First, the Nevada Wilderness Coalition would like to acknowledge 
the need for a new shooting range in Clark County. Our members spend a 
great deal of time hiking, camping and enjoying the public lands in 
Southern Nevada. All to often, when hiking or recreating on our public 
lands, we have encountered large amounts of trash left behind after 
being used as makeshift targets. These makeshift targets range from 
appliances, to furniture, to metal sheets that are shot up and left 
behind, scarring the beauty of the Mojave Desert region of Nevada. The 
Nevada Wilderness Coalition believes that a new shooting range in Clark 
County will help deal with this problem.
    However, the proposed location for the shooting range under H.R. 
2937 causes concern. H.R. 2937 would convey public lands under the 
jurisdiction of the BLM and managed as a Wilderness Study Area (WSA) 
for the shooting range. Specifically, a portion of the Quail Springs 
Wilderness Study Area would be released from its Study Area status and 
no longer subject to interim protection.
    Currently, there is only one area designated as Wilderness in all 
of Clark County, the Mt. Charleston Wilderness. The Mt. Charleston 
Wilderness is a high elevation, forested, area. The Mojave Desert 
Region of Nevada is home to an incredibly diverse array of wildlife, 
and spectacular landscapes. Unfortunately, this landscape is currently 
not included in the National Wilderness Preservation System. Some of 
the best wilderness quality lands in the Mojave Desert region of Nevada 
are currently being managed as Wilderness Study Areas. It is 
unfortunate that H.R. 2937 looks to one of these few areas in Clark 
County with interim protection for the location of a shooting range.
    Clark County is the fastest growing county in the country. The 
cities of Las Vegas and North Las Vegas have grown at an incredible 
rate during the past dozen years. With this growth comes increased 
pressures on the public lands in Southern Nevada. Urban sprawl, habitat 
fragmentation, and unbridled off-highway vehicle use all undermine the 
integrity of the valuable public asset that is the wild character of 
our public lands. These wild lands urgently need Wilderness designation 
if they are to be passed down to future generations. H.R. 2937 only 
exacerbates the pressures on our remaining wild places in Southern 
Nevada.
    The Nevada Wilderness Coalition has presented a Citizens'' 
Wilderness Proposal for Nevada's Mojave Desert Region to members of the 
Nevada Congressional Delegation and federal land management agencies. 
This proposal outlines a balanced plan to protect the wilderness 
character of some of our public lands in southern Nevada. This 
Wilderness Proposal should be debated and enacted by Congress.
    H.R. 2937 should be considered in the context of the broader 
pressures on the public lands in Clark County. Currently, H.R. 2937 
offers no mitigation, or Wilderness designation, and only further 
threatens the wilderness character of the public lands in southern 
Nevada.
    Fortunately, Senators Ensign and Reid are currently involved in a 
process to address public lands in Clark County in a more holistic way. 
The Nevada Wilderness Coalition has participated in Senator Ensign and 
Reid's public lands process for Clark County and is hopeful that it 
will lead to significant new Wilderness protections in Clark County. 
H.R.2937 should be considered in context of this more holistic review 
of the public lands management needs in Clark County.
    We look forward to working with Rep. Gibbons on the more holistic 
approach to balancing development on our public lands with much needed 
Wilderness protections. We ask that the subcommittee not approve H.R. 
2937 without assurances that it will address the larger Wilderness 
protection needs for the public lands in Clark County in the near term.
                                 ______
                                 

                                   - 

</pre></body></html>
